Nos. 19-251, 19-255

In the Supreme Court of the United States
_____________

AMERICANS FOR PROSPERITY FOUNDATION,
PETITIONER

v.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA, RESPONDENT
_____________
THOMAS MORE LAW CENTER, PETITIONER

v.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA, RESPONDENT
_____________
O N P ETITIONS FOR W RITS OF C ERTIORARI
TO THE U NITED S TATES C OURT OF A PPEALS
FOR THE N INTH C IRCUIT

_____________

BRIEF OF THE
NEW CIVIL LIBERTIES ALLIANCE
AS AMICUS CURIAE IN SUPPORT OF THE
PETITIONERS
_____________
PHILIP HAMBURGER
MARK CHENOWETH
MICHAEL P. DEGRANDIS
MARGARET A. LITTLE

Counsel of Record

New Civil Liberties Alliance
1225 19th Street NW, Suite 450
Washington, DC 20036
(202) 869-5210
peggy.little@ncla.legal

QUESTION PRESENTED
In the landmark civil rights case NAACP v. Alabama ex rel. Patterson, the Supreme Court denied a
state attorney general’s purportedly legitimate efforts
to procure the local NAACP’s membership list. In so
doing, it acknowledged the right to privacy in exercising the freedom of association—a birthright cherished
by all Americans ever since. The Court further recognized that the right to associational privacy is all the
more crucial to those who face harassment and intimidation simply because they belong to a group with
whom they share unpopular minority opinions.
The question presented in this case is whether the
holding of NAACP v. Alabama ex rel. Patterson will be
applied to modern state attorneys-general who compel
disclosure of supporter lists of unpopular organizations without articulating a substantial state interest
in obtaining the information. That is, does this hardwon, bedrock civil rights era precedent still protect the
vital relationship between the freedom to associate
and privacy in one’s associations?

(i)

TABLE OF CONTENTS

Question Presented ..................................................... i
Table of Contents ........................................................ ii
Table of Authorities ...................................................iv
Interest of Amicus Curiae ...........................................2
Summary of the Argument .........................................5
Argument .....................................................................7
I. The
Ninth
Circuit’s
Opinion
Is
Inconsistent
with
the
Robust
Constitutional Protections for Civil
Liberties the Supreme Court Articulated
in NAACP v. Alabama ......................................7
A. The NAACP v. Alabama Test Protects
Supporter Lists to Ensure Freedom
and Privacy of Association ..........................8
B. The
Ninth
Circuit’s
“Exacting
Scrutiny” Standard Is Inconsistent
with NAACP and Constitutionally
Incorrect.....................................................10
C. NAACP ’s Holding and Analysis Apply
to All Circumstances of Potential
Retribution for Exercising Freedom of
Association .................................................13
II. The Ninth Circuit’s Opinion Erodes
Protections for Minority Opinions .................19
A. The Administrative State Has Gutted
Much of the Constitution’s Structural
and Textual Protections for Minority
Opinions .....................................................19
(ii)

B. The
Ninth
Circuit’s
Opinion
Jeopardizes Protections for Minority
Opinions by Undermining First
Amendment Civil Liberties.......................20
C. NAACP v. Alabama’s Holding Should
Be Reaffirmed to Restore Freedoms of
Association and Speech .............................21
III.The Ninth Circuit’s Opinion Threatens
the Religious Freedom of Those Who
Wish to Practice Anonymous Charitable
Giving ..............................................................22
IV. The California Attorney General Lacks
the Authority under California Law to
Demand Charities’ IRS Form 990
Schedule Bs .....................................................24
A. The Attorney General Has Neither
the
Statutory
Nor
Regulatory
Authority to Demand Charities’ Form
990 Schedule Bs ........................................24
B. The Attorney General’s Unlawful
Demand
Violates
California’s
Separation of Powers Doctrine .................25
Conclusion .................................................................26

(iii)

TABLE OF AUTHORITIES
Cases

Ams. for Prosperity Found. v. Becerra, 903 F.3d

1000 (Sept. 11, 2018) ............................. 6, 10, 11, 14
Citizens United v. FEC, 558 U.S. 310 (2010) .............6
Citizens United v. Schneiderman, 882 F.3d 374
(2d Cir. 2018)................................................ 4, 11, 14
Davis v. FEC, 554 U.S. 724 (2008) ..............................6

NAACP v. Alabama ex rel. Patterson, Attorney
General, 357 U.S. 449 (1958) ........................ passim
Armistead v. State Personnel Bd., 583 P.2d 744
(Cal. 1978) ..............................................................24
Coastside Fishing Club v. Cal. Res. Agency, 158
Cal. App. 4th 1183 (2008) ......................................25
Engelmann v. State Bd. of Educ., 2 Cal. App.
4th 47 (1991) ..........................................................24

State Water Res. Control Bd. v. Office of Admin.
Law, 12 Cal. App. 4th 697, 702 (1993) ............ 19, 24
Statutes
Cal. Gov’t Code § 11340.5(a) .....................................24
Constitutional Provisions
Cal. Const. art. III, § 3 ..............................................25
Cal. Const. art. V, § 13...............................................24
U.S. Const. amend. I ...................................................3
U.S. Const. amend. XIV ..............................................3
U.S. Const. art. I, § 7 .................................................19
(iv)

Other Authorities
Federalist No. 10 (James Madison) ..........................18
Harold J. Brumm and Dale O. Cloninger,

Perceived Risk of Punishment and the
Commission of Homicides: A Covariance
Structure Analysis, 31 J. Econ. Behavior &

Org. 1 (1996); ......................................................... 11
Maynard L. Erickson, Jack P. Gibbs, and Gary
F. Jensen, The Deterrence Doctrine and the
Perceived Certainty of Legal Punishments, 42
Am. Soc. Rev. 305 (1977) ................................. 11, 13
Todd David Peterson, Procedural Checks: How

the Constitution (and Congress) Control the
Power of the Three Branches, 13 Duke J.

Const. Law & Pub. Pol’y 109, 247-48 (2017) ........19

(v)

In the Supreme Court of the United States
_____________

AMERICANS FOR PROSPERITY FOUNDATION,
PETITIONER

v.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA, RESPONDENT
_____________
THOMAS MORE LAW CENTER, PETITIONER

v.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA, RESPONDENT
_____________
O N P ETITIONS FOR W RITS OF C ERTIORARI
TO THE U NITED S TATES C OURT OF A PPEALS
FOR THE N INTH C IRCUIT

_____________

BRIEF OF THE NEW CIVIL
LIBERTIES ALLIANCE AS AMICUS CURIAE
IN SUPPORT OF THE PETITIONERS
_____________
INTEREST OF AMICUS CURIAE 1
The New Civil Liberties Alliance (NCLA) is a nonprofit civil rights organization and public-interest law
1

All parties were timely notified and consented to the filing of
this brief. No counsel for a party authored any part of this
brief. No one other than the amicus curiae, its members, or its
counsel financed the preparation or submission of this brief.

1

2
firm devoted to defending constitutional freedoms
against systemic threats, including attacks by administrative agencies and state attorneys-general on due
process, jury rights, freedom of speech and association, and other civil liberties. We uphold these constitutional rights on behalf of all Americans, of all backgrounds and beliefs, through original litigation, occasional amicus curiae briefs, and other advocacy.
The “new civil liberties” of the organization’s name
include rights at least as old as the U.S. Constitution
itself, such as freedom of association and the right to
be tried in front of an impartial and independent
judge. However, these selfsame civil rights are also
“new”—and in dire need of renewed vindication—precisely because state attorneys-general and other executive branch entities have arrogated legislative power
unto themselves and failed to respect vital civil liberties in the process. NCLA therefore aims to defend
civil liberties—primarily by asserting constitutional
constraints on administrative and executive actors,
including state attorneys-general.
NCLA supports the petition for certiorari—the
first amicus brief NCLA has filed at the certiorari
stage—because the question presented implicates the
legacy of an irreplaceable civil rights era precedent.
NCLA is particularly disturbed that a state attorney
general, without authority from an act of the state legislature, has invented a new, binding obligation on
charities in the State of California. Requiring these
groups to turn over a list of their major supporters

3
when they solicit donations for their various charitable endeavors violates the First Amendment of the
United States Constitution as applied to the states
under the Fourteenth Amendment.
Justice Harlan, joined by a unanimous Supreme
Court, proclaimed the right of associational anonymity in the landmark civil rights case of NAACP v. Alabama ex rel. Patterson, Attorney General, 357 U.S.
449 (1958). The giants of jurisprudence who recognized the vital need for unpopular minority organizations of all stripes to conduct their lawful private activities freely without pretextual oversight by, or suspicionless disclosures to, a state attorney general
would be dismayed if today’s judges were to reverse
that hard-won civil liberty.
NCLA’s principal interest as a civil rights organization participating in this litigation is to vindicate
the associational freedom and anonymity principles
enunciated in NAACP v. Alabama ex rel. Patterson.
When a state attorney general establishes a disclosure requirement via administrative fiat, when he can
“insist on a list” without any legislative authority, it
shifts lawmaking from elected legislators to California’s executive branch. Worse yet, it turns back the
clock to the pre-civil rights era when dissident organizations labored at the mercy and sufferance of hostile
state attorneys-general.
NCLA is a relatively new 501(c)(3) organization.
We have not yet seen fit to solicit contributions in California and we will not be likely to do so in the future,
if the Court validates this law’s intrusive disclosure

4
regime. It would be unfair to any of NCLA’s donors
from outside California who desire anonymity—and
who have a limited ability to influence an attorney
general for whom they cannot vote—for the organization to subject them to California’s disclosure regime,
which the U.S. Court of Appeals for the Second Circuit
has called out for its “systematic incompetence in
keeping donor lists confidential.” Citizens United v.
Schneiderman, 882 F.3d 374, 384 (2d Cir. 2018).
Success in this litigation would allow NCLA to solicit contributions in California without jeopardizing
the anonymity of any donors who desire it.
NCLA
has no way to know whether donations to our group
would ever be controversial or attract reprisals, but
we stand up for the rights of free association and expression for all groups—popular and unpopular alike.
NCLA ardently hopes that this Court will grant the
writs of certiorari, reverse the Ninth Circuit, and reaffirm our nation’s commitment to the bedrock civil
rights legacy of NAACP v. Alabama, rather than the
unconstitutionally intrusive balancing test contrived
by the Ninth Circuit.
SUMMARY OF THE ARGUMENT
The Ninth Circuit refused to require the Attorney
General to show that his ad hoc demand for charities’
IRS Form 990 Schedule Bs was narrowly tailored to
advance the government’s purported law enforcement
interests, thereby dramatically departing from 60
years of controlling civil rights precedent established
by this Court. See Ams. for Prosperity Found. (AFPF)
Pet. for Writ of Cert., at 1 (Aug. 26, 2019) and Thomas

5
More Law Ctr. (Thomas More) Pet. for Writ of Cert.,
at 14 (Aug. 26, 2019). The Supreme Court should
make it abundantly clear that NAACP still supplies
the definitive authority on First Amendment jurisprudence in this area, for four principal reasons.
First, this Court should be alarmed that the California Attorney General is so openly flouting the constitutional protections for privacy and associational
freedom recognized by the Supreme Court in NAACP
v. Alabama. When the Supreme Court famously held
that Alabama Attorney General John Patterson could
not compel the NAACP to produce its membership
list, the justices applied a simple rule that bears no
resemblance to the loose and indeterminate balancing
test dubbed “exacting scrutiny” by the opinion below.

See NAACP v. Alabama ex rel. Patterson, Attorney
General, 357 U.S. 449, 466 (1958).
The NAACP Court first observed that the

NAACP’s members had been subjected to harassment
when their membership had been revealed in the past.
That alone was enough to show that disclosure to the
state attorney general could deter people from joining
the organization. See id. at 462–63. Then the Court
considered Alabama’s purported “interest” in obtaining the membership list—to determine whether the
NAACP was violating the state’s foreign corporation
registration statute by conducting “intrastate business”—and held that the state’s demand for the membership list had no “substantial bearing” to this putative state interest. Id. at 464.

6
The Ninth Circuit has replaced the straightforward NAACP test with a vague and jargon-riddled
“exacting scrutiny” standard that offers little protection to unpopular minorities. See Ams. for Prosperity
Found. v. Becerra, 903 F.3d 1000, 1008 (Sept. 11,
2018). There is nothing at all “exacting” about the
panel’s standard of review. Instead of applying
NAACP, the court borrowed a gestalt balancing test
from cases involving compelled disclosures in the field
of election law. See id. (holding that the “exacting
scrutiny” standard “requires a substantial relation between the disclosure requirement and a sufficiently
important governmental interest” and that “the
strength of the governmental interest must reflect the
seriousness of the actual burden on First Amendment
rights.”) (quoting Citizens United v. FEC, 558 U.S.
310, 366–67 (2010) and Davis v. FEC, 554 U.S. 724,
744 (2008)) (internal quotations omitted). This approach finds no support in the NAACP opinion, which
the Ninth Circuit was bound to follow as direct, onpoint authority.
Second, the Ninth Circuit’s decision erodes constitutional protections for political minorities. Many of
the Constitution’s structural provisions and guarantees of rights are designed to safeguard minorities and
unpopular minority opinions. But these protections
lose much of their value when courts fail to protect
dissident organizations from compelled disclosure-decrees that intimidate charities’ supporters.

7
Third, the opinion below impinges on the religious
freedom of donors who want to give anonymously in
accordance with the teachings of their religion.
And finally, the Ninth Circuit ignored the ineluctable truth that the Attorney General lacked the statutory power to demand charities’ Schedule Bs at all.
By permitting his regulation-by-fiat, the Court would
facilitate his subversion of both the California Constitution and the United States Constitution.
ARGUMENT
I.

THE NINTH CIRCUIT’S OPINION IS INCONSISTENT
WITH THE ROBUST CONSTITUTIONAL PROTECTIONS
FOR CIVIL LIBERTIES THE SUPREME COURT
ARTICULATED IN NAACP V. ALABAMA

NAACP v. Alabama ex rel. Patterson is one of the

canonical rulings of the civil rights era. It protects the
rights of all dissident organizations to keep their supporter lists private from prying government officials.
NAACP’’s holding is not limited to organizations that
promote the cause of racial equality—it extends
equally to other organizations whose beliefs may provoke hostility and opposition, or whose supporters
could be deterred from affiliating absent assurances
of privacy and confidentiality.
A. The NAACP v. Alabama Test Protects
Supporter Lists to Ensure Freedom and
Privacy of Association
This Court, in one of its finest hours, acknowledged
the truth of the “vital relationship between freedom to

8
associate and privacy in one’s associations.” NAACP,
357 U.S. at 462. For the past 60 years, this Court has
recognized that the “[i]nviolability of privacy in group
association may in many circumstances be indispensable to preservation of freedom of association, particularly where a group espouses dissident beliefs.” Id.
In analyzing the Alabama state attorney general’s
demand for NAACP’s member list, the Court applied
a straightforward test that asks whether an organization’s members have previously encountered “public
hostility” when their membership was revealed. See
id. at 462–63. If so, then Alabama must show that
disclosure has a “substantial bearing” on the State’s
asserted interest in obtaining the list of names. See
id. at 464.
Under NAACP, if an organization shows that one
or more of its supporters had encountered “economic
reprisal, loss of employment, threat of physical coercion, and other manifestations of public hostility,” that
alone was enough to establish that disclosing the supporter lists to the state “may induce members to withdraw from the Association and dissuade others from
joining it.” Id. at 463. As the Court explained:
Petitioner has made an uncontroverted showing that on past occasions revelation of the
identity of its rank-and-file members has exposed these members to economic reprisal,
loss of employment, threat of physical coercion, and other manifestations of public hostility. Under these circumstances, we think it

9
apparent that compelled disclosure of petitioner’s Alabama membership is likely to affect adversely the ability of petitioner and its
members to pursue their collective effort to
foster beliefs which they admittedly have the
right to advocate, in that it may induce members to withdraw from the Association and
dissuade others from joining it because of fear
of exposure of their beliefs shown through
their associations and of the consequences of
this exposure.

Id. at 462–63. Under this approach, an organization

needs only to present evidence of past hostility encountered by its known supporters or affiliates on account of their relationship with the organization.
That by itself shows that disclosure will burden the
organization’s First Amendment rights, and that
showing then requires the state to demonstrate that
the forced disclosure of these names will have a “substantial bearing” on whatever interest the state asserts.
B. The Ninth Circuit’s “Exacting Scrutiny”
Standard Is Inconsistent with NAACP and
Constitutionally Incorrect
The most striking aspect of the Ninth Circuit’s “exacting scrutiny” standard is how little resemblance it
bears to the Supreme Court’s approach in NAACP—a
case that the court barely mentioned.
The Ninth Circuit held that it was not enough for
the plaintiffs to show that others had previously

10
threatened and harassed their supporters and affiliates—even though the plaintiffs had produced extensive evidence of this in the trial court. See Ams. for
Prosperity Found. (AFPF) v. Becerra, 903 F.3d 1000,
1015–17 (Sept. 11, 2018); see also id. at 1017 (acknowledging that “this evidence plainly shows at least
the possibility that the plaintiffs’ Schedule B contributors would face threats, harassment or reprisals if
their information were to become public.”) (emphasis
in original). Instead, the court held that the plaintiffs
must also show a “reasonable probability” that the Attorney General would somehow disclose the plaintiffs’
Schedule B contributors to the public. See id. at 1015.
NAACP imposed no such requirement. The mere fact
that the NAACP’s supporter list would be in the hands
of government officials was enough to establish a
chilling effect that “may induce members to withdraw” or “dissuade others from joining.” NAACP, 357
U.S. at 463. The probability or likelihood of public disclosure played no role in NAACP ’s First Amendment
analysis.
And the NAACP Court was correct to downplay the
question of public disclosure. In contrast, the Ninth
Circuit was wrong to require the plaintiffs to show a
“reasonable probability” that the Attorney General
would disclose their Schedule B contributors to the
public. To begin, the risk of future disclosure is impossible to quantify, even though everyone agrees
there is some risk of disclosure. See AFPF, 903 F.3d
at 1018 (“Nothing is perfectly secure on the internet

11
in 2018.”); id. at 1019 (“[T]here is always a risk somebody in the Attorney General’s office will let confidential information slip notwithstanding an express prohibition.”) (quoting Citizens United, 882 F.3d at 384)
(internal quotations omitted). So how is a judge—or
litigant—supposed to determine when the risk of public disclosure is so great as to become a “reasonable”
probability? And how is a plaintiff supposed to
demonstrate a “reasonable probability” of public disclosure?
More importantly, any chance of public disclosure
is enough to deter some individuals at the margin
from joining or donating to dissident organizations.
Deterrence depends entirely on an individual’s personal situation and personal considerations. 2 Someone whose circumstances leaves him particularly vulnerable to public disclosure—or who is dependent on
the state and therefore worries about retaliation from
hostile state officials even absent public disclosure—
will be dissuaded from joining or donating, notwithstanding that the probability of disclosure may be
small. This marginal chilling effect is alone enough to
substantially burden the First Amendment rights of
organizations and their supporters.

2

See Harold J. Brumm and Dale O. Cloninger, Perceived Risk of
Punishment and the Commission of Homicides: A Covariance
Structure Analysis, 31 J. Econ. Behavior & Org. 1 (1996);
Maynard L. Erickson, Jack P. Gibbs, and Gary F. Jensen, The
Deterrence Doctrine and the Perceived Certainty of Legal Punishments, 42 Am. Soc. Rev. 305 (1977).

12
A compelled disclosure regime produces this
chilling effect whenever it demands a list from an entity. NAACP correctly declined to consider whether
the Alabama Attorney General would actually disclose the NAACP’s membership list to the public. Instead, the mere demand for the list created the
chilling effect that burdened the members’ First
Amendment rights. Thus, NAACP requires California to show that the compelled disclosure has a “substantial bearing” on the interests that it asserts,
which it cannot do. See NAACP, 357 U.S. at 462–63;
464–65.
Attorney General Becerra’s forced disclosure of
supporters’ lists cannot be justified by any state interest, much less a substantial one. Schedule B will not
ferret-out fraud. Top association supporters—reported on Schedule B by the nonprofit itself—are the
most capable of monitoring their association’s management and the least likely to disapprove of it. Moreover, any association supporter, whether listed on
Schedule B or not, may freely choose to cooperate with
the Attorney General to investigate an association’s
alleged fraud. Indeed, given that less than 1% of investigations of charities implicate Schedule B, it is
fair to question Attorney General Becerra’s true motives in casting such a wide, First Amendmentchilling net. 3
3

See AFPF Pet. for Writ of Cert., at 13 (“[L]ess than 1% (5 out
of 540) of the Attorney General’s investigations of charities
over the past ten years had even implicated Schedule B, and,

13
C. NAACP ’s Holding and Analysis Apply to All
Circumstances of Potential Retribution for
Exercising Freedom of Association
The Ninth Circuit diluted the protections established in NAACP by engaging in two specious doctrinal maneuvers. The first of these maneuvers has already been explained in the plaintiffs’ Petitions: The
court relied on cases involving compelled disclosures
in election law, where the Supreme Court has established a far more forgiving standard of review than
the rigorous standard that governs non-election cases
such as NAACP and this one. See Ams. for Prosperity
Found. (AFPF) Pet. for Writ of Cert., at 2–3 (Aug. 26,
2019).
But the Ninth Circuit’s second maneuver is more
subtle and more pernicious. The opinion—like the
Second Circuit’s in Citizens United v. Schneiderman—
attempted to limit the holding of NAACP to situations
in which an organization’s supporters would face violent retaliation if their affiliations were disclosed. The
Second Circuit, for example, tried to distinguish
NAACP as follows:
NAACP members rightly feared violent retaliation from white supremacists for their membership in an organization then actively

even in those five investigations, the investigators were able to
obtain the pertinent Schedule B information from other
sources.”).

14
fighting to overthrow Jim Crow. Ample evidence of past retaliation and threats had been
presented to the Court. Requiring the NAACP
to turn over its member list to a state government that would very likely make that information available to violent white supremacist
organizations, the Court concluded, would
reasonably prevent at least some of those
members from engaging in further speech
and/or association.

Citizens United, 882 F.3d at 381 (emphasis added) (in-

ternal citations omitted). Later in the opinion, the
Second Circuit again attempted to distinguish
NAACP by observing that civil rights activists had encountered not merely hostility but violent retribution:
In NAACP, the Court was presented … with
“an uncontroverted showing that on past occasions revelation of the identity of its rank-andfile members has exposed those members to
economic reprisal, loss of employment, [and]
threat of physical coercion,” and it was well

known at the time that civil rights activists in
Alabama and elsewhere had been beaten and/or
killed.
Id. at 385 (emphasis added).

The Ninth Circuit’s
panel opinion likewise distinguished NAACP in a footnote by quoting this exact passage from Citizens
United. See AFPF, 903 F.3d at 1014–15 & n.5.

15

NAACP, however, never limits its holding to situ-

ations in which an organization’s supporters are subjected to physical violence. Quite the opposite, the Supreme Court said that the NAACP:
made an uncontroverted showing that on past
occasions revelation of the identity of its rankand-file members has exposed these members
to economic reprisal, loss of employment,
threat of physical coercion, and other manifestations of public hostility.

NAACP, 357 U.S. at 462 (emphasis added). Then it

said that this evidence—which included non-violent
forms of retribution—showed that disclosure of the
supporter list:
may induce members to withdraw from the
Association and dissuade others from joining
it because of fear of exposure of their beliefs
shown through their associations and of the
consequences of this exposure.

Id. at 463. Nowhere does the Court’s opinion mention

or acknowledge the previous acts of violence committed against civil rights activists—let alone imply that
its holding was predicated on these past acts of violence or threats of future violence.
Non-violent harassment is as capable of chilling
First Amendment freedoms as physical force. Indeed,
as Attorney General Becerra full well knows, activists

16
who support same-sex marriage targeted the former
CEO of Mozilla and forced him to resign his job after
discovering that he had donated $1,000 to California
Proposition 8. 4 Activists likewise targeted the Artistic
Director of the California Musical Theater, who was
forced to resign his job once his $1,000 donation to
Proposition 8 was publicly disclosed. 5 Notably, those
reprisals came in response to donations to an initiative that the voters had approved. 6
Free speech and association are guaranteed by our
Constitution without resort to prior proof of actual or
threatened victimization. Donors to organizations
that support unpopular causes are equally susceptible
to non-violent bullying of this sort, and the fear of losing employment and business opportunities is no less
menacing to First Amendment freedoms than the
threat of physical violence. 7 For the Ninth Circuit to
4

See Nick Bilton and Noam Cohen, Mozilla’s Chief Felled by
View on Gay Unions, New York Times (April 3, 2014), available

at https://nyti.ms/2zQ1vu0 (last visited on September 24,
2019).

5

See https://www. wsj.com/articles/SB123033766467736451
(last visited on September 24, 2019).

6

See Chris Cillizza & Sean Sulivan, How Proposition 8 passed
in California — and why it wouldn’t today, Wash. Post, avail-

able at https://www.washingtonpost.com/news/thefix/wp/2013/03/26/how-proposition-8-passed-in-california-andwhy-it-wouldnt-today/ (last visited on September 24, 2019).
7

Even if the Attorney General does not disclose the list, supporters may also reasonably fear loss of business opportunities caused by disclosure to the Attorney General. California

17
make NAACP ’s holding turn on the violence and brutality of white supremacists guts one of the canonical
precedents of the civil rights era, converting it into a
one-off holding that protects only those who can show
that their physical safety would be endangered by disclosing their association with a dissident organization. 8 Worse, it requires a speaker to invoke such a
menacing scenario in order to protect the speaker’s
liberty of expression.
has been known to attempt to influence the internal politics
of other states by prohibiting state employee travel to states
that make policy choices that differ from California’s. It is
not much of a stretch to contemplate that the Attorney General and his successors may use supporter lists internally to
the detriment of those supporters without their knowing the
reason why they have lost business from the state, or why
they have been targeted for regulatory mischief or perhaps
even singled out for criminal investigations and prosecutions.
8

That said, the threat to individuals of physical violence by today’s extremists should not be discounted. Whether doxxing
at the University of Texas (https://www.foxnews.com/media/texas-students-react-doxxing-threats-conservatives),
SWATting in Wichita (https://www.nytimes.com/2018/11/13/us/barriss-swatting-wichita.html), Antifa at a Boston parade or ICE facilities (https://www.bostonherald.com/2019/09/01/call-antifa-what-they-are-domestic-terrorists/), a mob trying to break into a journalist’s home
(https://www.usatoday.com/story/news/politics/2018/11/08/mob-tucker-carlsons-home-antifa-break-doorchant-fox-host/1927868002/), or death threats against Covington students (https://www.thedailybeast.com/covingtoncatholic-students-claim-death-threats-after-dc-encounter),
there are far too many examples of violence or threats of violence in an increasingly polarized society.

18
The AFPF decision threatens the legacy of the civil
rights movement by diluting the protections for associational freedom and privacy that the Supreme Court
established in NAACP v. Alabama ex rel. Patterson,
and by attempting to limit NAACP ’s holding to situations involving the extraordinary acts of brutality that
characterized the civil rights era. The Court should
grant certiorari to reaffirm NAACP and apply its public hostility test to this case.
II.

THE NINTH CIRCUIT’S OPINION
PROTECTIONS FOR MINORITY OPINIONS

ERODES

The Constitution does much to protect the rights
of political minorities, but many of those protections
are under assault by forces that want to stamp out
dissent and unpopular viewpoints. The Ninth Circuit’s decision continues this trend of erosion of protections for minority opinions.
A. The Administrative State Has Gutted Much of
the Constitution’s Structural and Textual
Protections for Minority Opinions
The Constitution’s federalist structure is designed,
in part, to preserve safe harbors where political minorities can thrive and even push back against a prevailing practice or ideology. See The Federalist No. 10
(James Madison). 9 Its enumerated federal powers
9

“Either the existence of the same passion or interest in a majority at the same time must be prevented, or the majority,
having such coexistent passion or interest, must be rendered,

19
provide additional safeguards. Article I, section 7, for
example, prevents any bill from becoming law unless
it obtains approval from three separate institutions—
the House, the Senate, and the President—or unless
it secures a two-thirds override approval in both the
House and Senate after a presidential veto. U.S.
Const. art. I, § 7. This scheme of bicameral presentment to the chief executive is designed to force a deliberative process to reduce the threat that a majority
could abuse its power or act arbitrarily. See Todd David Peterson, Procedural Checks: How the Constitu-

tion (and Congress) Control the Power of the Three
Branches, 13 Duke J. Const. Law & Pub. Pol’y 209,

247–48 (2017).
National lawmaking by administrative agencies,
however, has weakened the protections that federalism and Article I, section 7 confer on political minorities. In a world where bicameralism and presentment
are respected, political minorities hold considerable
power to block proposed legislation, which enables
them to insist on compromise. Administrative lawmaking guts these protections by empowering federal
agencies or, in this case, a state attorney general, to
rule by unilateral decree.

(by their number and local situation, unable to concert and
carry into effect schemes of oppression. * * * A republic, by
which I mean a government in which the scheme of representation takes place, opens a different prospect, and promises
the cure for which we are seeking.” The Federalist No. 10
(James Madison).

20
B. The Ninth Circuit’s Opinion Jeopardizes
Protections for Minority Opinions by
Undermining First Amendment Civil Liberties
The First Amendment does more than simply protect dissident organizations from direct government
coercion. It also stops government from enabling the
bullying and intimidation wrought by private citizens
against others who anonymously join together to express their unpopular views through an organization.
Bullying and intimidation were the principal concerns of this Court in NAACP. The NAACP Court
acknowledged that supporters of dissident organizations are vulnerable to coercion and being silenced.
The compelled disclosure of supporter names facilitates pressure from those who oppose the organization’s views and who are determined to use social pressure or threats to stamp out opposing viewpoints. The
very real danger today is that state compelled disclosure regimes can be combined with social media tools
to coordinate unwarranted social pressure and
threats against a dissident organization’s supporters,
creating the same one-two punch that so troubled the
Supreme Court in NAACP. See NAACP, 357 U.S. at
462–64.
The ease with which information can now be
shared—or hacked by malevolent individuals and foreign governments—makes compelled disclosures an
even greater threat to First Amendment freedoms
than they were at the time of NAACP v. Alabama. The

21
Court should grant certiorari to reinvigorate constitutional protections for all opinions, regardless of viewpoint, including minority and unpopular opinions.
C. NAACP v. Alabama’s Holding Should Be
Reaffirmed to Restore Freedoms of
Association and Speech
Those who hold unpopular minority viewpoints
face physical, financial, and social threats that could
destroy their lives and their families. The Supreme
Court’s approach to addressing this problem in
NAACP v. Alabama ex rel. Patterson was to categorically prohibit Attorney General Patterson from acquiring NAACP’s supporter lists. The Supreme Court
thereby protected Americans from the associationchilling and speech-chilling effects of forced disclosure
to government.
The Ninth Circuit takes the exact opposite approach to the problems faced by people who take unpopular positions. Its approach enables Attorney
General Becerra to play upon popular hostility
against minority opinion, so as to create fear among
those who associate with unpopular views, thereby
undermining their right of association and their freedom of speech—all contrary to the holding of NAACP.
If anything, that precedent should be bolstered so that
states cannot enlist private hostility to undermine minority opinion and freedom.

22
III. THE NINTH CIRCUIT’S OPINION THREATENS THE
RELIGIOUS FREEDOM OF THOSE WHO WISH TO
PRACTICE ANONYMOUS CHARITABLE GIVING
A donor’s need for anonymity may extend beyond
the fear of intimidation or retaliation. For many donors, their desire to remain anonymous stems from a
religious conviction that charitable giving should be
done in secret. This desire can exist independently of
whether the recipient of the charitable act is itself religious.
Christians quote Jesus as saying “when you give to
the needy, do not announce it with trumpets” and
“when you give to the needy, do not let your left hand
know what your right hand is doing.” 10 Maimonides
set forth eight levels of charity or “tzedakah,” with two
of the highest levels requiring anonymity. 11
Muslims quote the Quran as saying “[i]f you disclose your Sadaqaat [almsgiving], it is well; but if you
conceal them and give them to the poor, that is better
for you.” 12 In fact, one study found that anonymity

10

Matthew 6:2–3.

11

See

12

Quran 2:271 (as transliterated by Zakat Foundation,
https://www.zakat.org/en/giving-charity-secret-publicly/
(last visited September 24, 2019)).

Mishneh Torah,
https://bit.ly/2lrqj71.

Gifts

to

the

Poor

10:7–14,

23
significantly increased the number of donations from
59% to 77%. 13
The Ninth Circuit’s decision makes anonymous
giving impossible for adherents of at least three of the
world’s major religions—and this can deter their charitable giving by changing a crucial aspect of the charitable act, even if the donor has no fear of retribution.
Thus, in addition to impacting religious liberty, forced
disclosure can also reduce the total level of contributions nonprofit organizations receive.
IV. THE CALIFORNIA ATTORNEY GENERAL LACKS THE
AUTHORITY UNDER CALIFORNIA LAW TO DEMAND
CHARITIES’ IRS FORM 990 SCHEDULE BS
Not only does the Ninth Circuit’s decision undo
decades of hard-earned and long-standing civil rights
precedent, the Attorney General’s demand for every
charity’s Schedule B is also unlawful because the Attorney General lacks the legal authority to make law
by fiat. Indeed, the Attorney General’s decree violates
the California Constitution’s separation of powers.
A. The Attorney General Has Neither the
Statutory Nor Regulatory Authority to Demand
Charities’ Form 990 Schedule Bs
Under the California State Constitution, the Attorney General is the chief law enforcement officer of the
state, whose duty it is “to see that the laws of the State
13

See F. Lambarraa & G. Riener, On the Norms of Charitable
Giving in Islam: Two Field Experiments in Morocco, 118 J.
Econ. Behavior & Org. 69–84 (2015).

24
are uniformly and adequately enforced.” Cal. Const.
art. V, § 13. The Attorney General has supervisory
authority over state district attorneys and state law
enforcement. Id.. No California law gives the Attorney General the power to demand IRS Form 990
Schedule B.
Additionally, even if the Schedule B demand were
within the ambit of the Attorney General’s constitutional or statutory power—which it is not—the only
conceivable way the Attorney General could lawfully
require Schedule B disclosure would be after following
the process for promulgating regulations under California’s Administrative Procedure Act (APA). Compliance with the APA is mandatory. See Armistead v.
State Personnel Bd., 583 P.2d 744, 747 (Cal. 1978).
And all regulations are subject to APA rulemaking.
See Engelmann v. State Bd. of Educ., 2 Cal. App. 4th
47, 55 (1991). See also Cal. Gov’t Code § 11340.5(a).
As the California Court of Appeal has explained, “if it
looks like a regulation, reads like a regulation, and
acts like a regulation, it will be treated as a regulation
whether or not the agency in question so labeled it.”
State Water Res. Control Bd. v. Office of Admin. Law,
12 Cal. App. 4th 697, 702 (1993). Nevertheless, one
state official has commanded “give me your Schedule
Bs” without the citizens of California having any opportunity to participate in making this regulation—a
regulation that binds them under threat of penalty
and deprives them of their civil liberties.

25
B. The Attorney General’s Unlawful Demand
Violates California’s Separation of Powers
Doctrine
The California Constitution divides state government powers among the legislative, executive, and judicial branches. Cal. Const. art. III, § 3. A branch
may not exercise the power of another unless expressly permitted by the California Constitution. Id..
In some circumstances, an agency may lawfully determine whether the facts of a case bring it within the
ambit of a rule or standard previously established by
the Legislature, but it may never formulate legislative
policy or make law. See Coastside Fishing Club v. Cal.
Res. Agency, 158 Cal. App. 4th 1183, 1205 (2008). The
key consideration is whether the administrator is
complying with the “legislative will[,]” rather than his
or her own. See id. Moreover, the California Legislature may not delegate its authority to make law, as
this would result in an agency wielding unchecked
power. See id.
In this case, the California Legislature has not delegated to the Attorney General—constitutionally or
unconstitutionally—the authority to demand Schedule Bs from charities. The Attorney General took it
upon himself to make California policy and law in this
area. He usurped exclusive legislative prerogatives,
and in doing so, violated the constitutional doctrine of
separation of powers.

26
CONCLUSION
This Court should grant the Americans for Prosperity Foundation and the Thomas More Law Center
writs of certiorari because the Ninth Circuit misapplied this Court’s long-standing civil rights precedent
first articulated by NAACP v. Alabama ex rel. Patterson and due to other constitutional infirmities inherent in the opinion rendered below.
Respectfully submitted.
PHILIP HAMBURGER
MARK CHENOWETH
MICHAEL P. DEGRANDIS
MARGARET A. LITTLE

Counsel of Record

New Civil Liberties Alliance
1225 19th Street NW, Suite 450
Washington, DC 20036
(202) 869-5210

peggy.little@ncla.legal
September 25, 2019

